                                          u.s. SMALL BUSINESS ADMINISTRATION
                                             OFFICE OF INSPECTOR GENERAL
                                               WASHINGTON,   D.C. 20416




                                                                TRANSMITTAL MEMORANDUM
                                                                               Report No. 14-07



DATE: 	         January 15, 2014

To: 	           Jonathan I. Carver
                Chief Financial Officer

FROM: 	         Robert A. Westbrooks /S/
                Deputy Inspector General

SUBJECT: 	      KPMG Management Letter Communicating Matters Relative to SBA's FY 2013
                Financial Statement Audit

The attached Management Letter identifies matters that were identified during the audit
of the SBA's FY 2013 financial statements. The audit was performed by an independent public
accountant, KMPG LLP, under a contract with the Office of Inspector General and in accordance with
Generally Accepted Government Auditing Standards; Office of Management and Budget's (OMB)
Bulletin 14-02, Audit Requirements for Federal Financial Statements; the Government Accountability
Office (GAO)/President's Council on Integrity and Efficiency (PClE) Financial Audit Manual; and GAO's
Federal Information System Controls Audit Manual.

The Management Letter addressed recommendations to the Chief Financial Officer; Chief Human
Capital Officer; and Director for the Office of Financial Program Operations. We provided a draft
of KPMG LLP's report to each of these officials or their designees, who fully or substantially
concurred with the findings relative to their respective areas. The officials or designees agreed to
implement the recommendations or have already taken action to address the underlying
conditions.

Should you have any questions, please contact Jeffrey Brindle, Director, Information Technology and
Financial Management at (202) 205-7490.

Attachment
                              KPM G LLP
                              Suite 12000
                              1801 K Street. NW
                              Washington. DC 20006




                                    MANAGEMENT LETTER

December 16, 2013



CONFIDENTIAL

The Inspector General
U.S. Small Business Administration
Washington, DC


Ladies and Gentlemen:


In planning and perforn1ing our audit of the consolidated financial statements ofthe U.S. Small
Business Administration (the SBA), as of and for the year ended September 30, 2013 and 2012,
in accordance with auditing standards generally accepted in the United States of America, the
standards applicable to financial audits contained in Government Auditing Standards, issued by
the Comptroller General of the United States, and Office of Management and Budget (OMB)
Bulletin No. 14-02, Audit Requirements Jar Federal Financial Statement, we considered the
SBA' s internal control over financial reporting (intemal control) as a basis for designing audit
procedures that are appropriate in the circumstances for the purpose of expressing oUl' opinion on
the financial statements, but not for the purpose of expressing an opinion on the effectiveness of
the SBA ' s internal control. Accordingly we do not express an opinion on the effectiveness of
the SBA's internal control.

During our audit we noted certain matters involving internal control and other operational
matters that are presented for your consideration. These comments and recommendations, all of
which have been discussed with the appropriate members of management, are intended to
improve internal control or result in other operating efficiencies and are summarized in Exhibit I.

In addition, we identified certain deficiencies in internal control that we consider to be a
significant deficiency, and communicated them in writing to management and those charged
with governance on December 16, 2013.

Our audit procedures are designed primarily to enable us to form an opinion on the financial
statements, and therefore may not bring to light all weaknesses in policies or procedures that
may exist. We aim, however, to use our knowledge of the SBA's organization gained during our
work to make comments and suggestions that we hope will be useful to you.
We would be pleased to discu s these comments and recommendations with you at any time.




                               KPMG LLP IS a Delaware limned liabili ty par ne rs hlp.
                               the U S merrber film of KPMG International CooperatIVe
                               I"KPMG Internatl()nal ~ ). a SWISS en tity
Office of the Inspector General
U.S. Small Business Administration
December 16, 20 I 3
Page 2 of9



This communication is intended so lely for the infollllation and use of management, the Office of
Inspector General , others within the organization, the Govemment Accountability Office, and
the U.S. Congress, and is not intended to be and should not be used by anyone other than these
specified parties.

Very tru ly yours,
                                                                                          Exhibit I
                        U.S. SMALL BUSINESS ADMINISTRATION
                               Management Letter Comments 

                                       FY 2013 




IMPROVEMENT IS NEEDED IN THE DOCUMENTATION OF THE OBLIGATIONS
REVIEW PROCESS

The Chief Financial Officer (CFO) does not have a current Standard Operating Procedure (SOP)
that delegates specific responsibilities for creating an obligation, monitoring Undelivered Orders,
(UDO) and de-obligating funds in its accounting system (Joint Administrative Accounting
Management System).

During.our walkthrough of SBA's processes for reviewing its obligations, we noted that the
CFO had issued a procedural notice as of February 6, 2013 that outlined the UDO review and
close-out responsibilities of the Office of Planning and Budget and the Denver Finance Center
staff. However, the notice is temporary and does not adequately address the responsibilities of
the Denver Finance Center staff, which has been delegated the responsibility of initiating
obligations and ensuring the timely de-obligation ofUDOs in the accounting system.

We recommend the Chief Financial Officer:

    1. 	 Continues to develop, formalize, and implement a current SOP to include staff roles and
         responsibilities, specific criteria, and timeframes for monitoring and closing obligations.
         This SOP should include the specific titles of the personnel who are delegated these
         responsibilities.

Management's Response:

The SBA' s management concurred with the finding and recommendation.


MISSING LOAN FILE DOCUMENTATION

During our testwork performed over the guaranty loan charge-offs at the Little Rock
Commercial Loan Servicing Center, we noted that the following documentation, required for the
loans listed below, was not retained in the loan files:

 Missin! Documentation                        Loan Numbers

 Wrap-up Report                               FOIAEx.4

 Site visit documentation                     FOIAEx.4

We recommend the Office of Financial Program Operations Director (OFPO):
                                                                                         Exhibit I
                       U.S. SMALL BUSINESS ADMINISTRATION 

                              Management Letter Comments 

                                            FY 2013 




   2. 	 Implement quarterly quality control reviews over the loan files to ensure that all relevant
        documentation is retained prior to charge-off or disbursement.

   3. 	 Reinforce, through the issuance of a memorandum or training, the importance of
        retaining all substantive loan documents such as the site visit and wrap-up reports for all
        applicable loan files.

Management's Response:

The SBA's management concurred with the finding and recommendation.


UNTIMELY POST PURCHASE AND CHARGE-OFF REVIEWS AND UNTIMELY
PROCESSING OF CHARGE-OFF TRANSACTIONS

During our testwork over guaranty loan purchases and charge-offs, we noted the following
deficiencies at the loan centers:

National Guaranty Purchase Center, Herndon, VA:

 Loan Type         Loan Number                       Deficiency


                   FOIAEx.4                          The Post Purchase review was not timely
 7(a)
                                                     completed (three to ten month delays).



Commercial Loan Service Center, Fresno, CA:

 LoanT~e           Loan Number                       Deficiency
                  FOIAEx.4                           There was a seven month to two year delay
 504
                                                     between the loan purchase and charge-off.

Commercial Loan Servicing Center, Little Rock, AR:

 Loan Type        Loan Number                        Deficiency
                                                     There was a nine month to two year delay
 504              FOIAEx.4
                                                     between the loan purchase and charge off.
                                                     There was a one month delay between the
 504              FOIAEx.4                           date of charge-off approval and the date of
                                                     charge-off processing.
                                                                                       Exhibit I
                      u.s. SMALL BUSINESS ADMINISTRATION 

                                Management Letter Comments 

                                        FY 2013 




We recommend the OFPO Director:

   4. 	 Develops FY 2014 goals to address the inventory of Post Purchase Reviews and reassess
        necessary resources to improve processing time.

   5. 	 Leverages the existing quarterly reviews of the inventory of purchased loans to ensure
        that loan charge-offs occur timely. In addition, perform an additional review at year-end
        to ensure that all loans ready to be charged off are processed in the appropriate fiscal
        year.

   6. 	 Reinforces the importance of immediate processing of approved charge-offs at the Little
        Rock Commercial Loan Servicing Center to ensure loan charge-offs occur timely and in
        the appropriate fiscal year.

Management's Response:

The SBA' s management concurred with the finding and recommendation.


LACK OF REQUIRED SIGN-OFFS ON GUARANTY PURCHASES AND CHARGE-OFFS

During our testwork over guaranty loan purchases at the Commercial Loan Service Center in
Fresno, CA, we noted the following:

 • 	 An approving official did not review and approve the purchase transaction for 504 loan
     #FOIA Ex. 4

 • 	 The legal official recommended postponing the charge-off transaction. There was no
     documentation that indicated the approving official took this recommendation into
     consideration during the fmal review, and proceeded with charging off the loan balance on
     504 loans #FOIA Ex. 4 and FOIA Ex. 4

We recommend the OFPO Director:

   7. 	 Reinforces the importance of a thorough review of all Form 327 actions by SBA
        personnel through the issuance of a memorandum or training.

   8. 	 Reinforces the need for appropriate documentation of the approving officials'
        consideration of the legal counsel's review and recommendation for charge-offs through
        the issuance of a memo or training.
                                                                                        Exhibit I
                       U.S. SMALL BUSINESS ADMINISTRATION 

                              Management Letter Comments 

                                      FY 2013 




    9. 	 Performs periodic (quarterly) quality assurance reviews of Form 327 Charge-offactions
         to ensure all appropriate personnel have signed the form.

Management's Response:

The SBA's management concurred with the finding and recommendation.


INCORRECT AMOUNT PAID AT TIME OF GUARANTY PURCHASE

During our testwork over 7(a) guaranty loan purchases processed at the National Guaranty
Purchase Center in Herndon, VA, we identified the following:

The SBA used an incorrect interest rate to calculate the interest owed to the lender, resulting in
an overpayment of interest for the following loan:

                                  Incorrect
                                                    Correct          Overpayment
        Loan Number               Interest Rate
                                                    Interest Rate    Amount
                                  Used
        FOIA Ex. 4                7.00%             6.00%            $2,096.00

When calculating the purchase price of the loan guaranty, the SBA erroneously included
expenses of $230.90, which should have been disallowed due to missing invoices. Additionally,
SBA personnel erroneously entered the principal balance into the Guaranty Purchase Tracking
System (GPTS), resulting in a difference of $11. Using a guaranty rate of 75%, the resulting
overpayment to the lender is:

                                                   Net Overpayment
                   Loan Number
                                                   Amount
                   FOIA Ex. 4                      $164.93

The SBA used an incorrect principal balance to calculate interest to be paid, resulting in an
underpayment to the lender for the following loans:


                   Loan Number                     Underpayment Amount

                   FOIA Ex. 4                      $ (2,388.00)
                   FOIA Ex. 4                      $( 18,60 1.00)

                   Total                           $(20,989.00)
                                                                                       Exhibit I
                       u.s. SMALL BUSINESS ADMINISTRATION
                                Management Letter Comments 

                                        FY 2013 




The SBA paid accrued interest on an incorrect number of accrued interest days, resulting in an
underpayment to the lender for the following loan:

                                  Incorrect        Correct
                                                                     Underpayment
        Loan Number               Number of        Number of
                                                                     Amount
                                  Days             Days
        FOIA Ex. 4                211              242               $(751.00)

The SBA did not retain invoices for allowable Care and Preservation of Collateral (CPC)
expenses in the amount of $4,039.20, which were included in the principal balance at time of
purchase for the following loan:

                   Loan Number                     Overpayment Amount
                   FOIA Ex. 4 	                    $4,039.20

We recommend the OFPO Director:

    10. Reinforces to approving officials, through the issuance of a memorandum or training,
        the importance of a thorough review and reconciliation of the interest rate, the amount of
        interest to be paid, and the outstanding principal balance prior to the guaranty loan
        purchase. This should include a detailed review of GPTS and the supporting loan
        documentation at time of purchase.

    11. Reinforces, through the issuance 	of a memorandum or training to SBA's data entry
        personnel, the importance of performing thorough self-reviews of loan information
        manually entered into GPTS or any other SBA system.

    12. Reinforces to approving officials, through the issuance of a memorandum or training,
        the importance of retaining the supporting loan documentation.

    13. Notifies the lenders ofthe over/under payments, and corrects the outstanding receivables
        or payables for each respective loan.

Management's Response: 


The SBA's management concurred with the finding and recommendation. 

                                                                                     Exhibit I
                      u.s. SMALL BUSINESS ADMINISTRATION 

                               Management Letter Comments 

                                       FY 2013 




INADEQUATE REVIEW OF STAR TIME AND ATTENDANCE REPORTS

During our testwork over a sample of 45 System for Time and Attendance Reporting (STAR)
Time and Attendance (T&A) Reports and related supporting documentation for the amount
certified, we noted the following deficiencies:

   • 	 Two STAR T&A Reports were not signed by the supervisor evidencing proper review
       and approval (Offices of the ChiefInformation Officer and Capital Access).

   • 	 One STAR T&A Report was signed and dated after the payroll disbursement occurred
       (Office of the Inspector General).

   • 	 Five STAR T&A Reports were not dated by the employee's timekeeper and/or
       supervisor evidencing timely review and certification (Offices of General Counsel, Field
       Operations, and Financial Assistance).

   • 	 Two Office of Personnel Management (OPM) Form 71, Request/or Leave or Approved
       Absence. were not obtained and maintained to support leave taken during the selected
       pay period (Offices of International Trade and Investments).

We recommend the Chief Human Capital Officer:

   14. 	Continues to reinforce policies and procedures regarding the certification of STAR T&A
        Reports with supervisors and timekeepers (Le., issuance of a memorandum, training).

   15. Develops and 	implements appropriate enforcement actions against individuals and
       offices with multiple instances of non -compliance.

   16. Continues to perform periodic quality 	assurance reviews to ensure supervisors and
       timekeepers are properly certifying and dating all START&A Reports.


Management's Response:

The SBA's management concurred with the finding and recommendation.
                                                                                        Exhibit I
                       u.s. SMALL BUSINESS ADMINISTRATION 

                                 Management Letter Comments 

                                         FY 2013 




IMPROVEMENT NEEDED IN THE EMPLOYEE SEPARATION PROCESS

During our review of internal controls over SBA's employee separation process, we found that
29 of the 30 SBA Form 78, Separation Checklist Form (Checklists) were not properly or
completed or signed in accordance with the instructions provided on the Form 78 or in the
governing SOP. More specifically, employees did not obtain clearances from SBA
administrative offices where their supervisor had indicated a clearance was required. The Office
of Human Resource Solutions (OHRS) was unable to provide the remaining Checklist.

We recommend the Chief Human Capital Officer:

    17. 	Provides training to all SBA managers and supervisors regarding the completion and
         acceptance of an employee's Checklist. The training should emphasize that managers
         and supervisors are responsible for returning the completed Checklist to the Servicing
         Human Resources Office.

    18. 	Encourages SBA managers and supervisors to start an employee's separation process at
         least two weeks prior to their departure date. This will allow the employee adequate time
         to obtain all required signatures on the Checklist.

    19. 	Reinforces the policies and procedures that require staff in the OHRS to fully review
         employees' Checklists, ensuring that all required fields are completed prior to their
         acceptance and sign-off.

    20. Develops 	 and implements administrative actions for SBA officials who do not
        consistently adhere to the separation policy outlined in the SOP.

    21. Establishes procedures to ensure the Servicing Human Resources Office timely receives
        all employee Checklists and submits them to the Payroll Processing Branch for filing in
        accordance with the SBA's records retention schedule.

Management's Response:

The SBA's management concurred with the finding and recommendation.
